<html>
<title> - AMERICA'S GLOBAL LEADERSHIP: WHY DIPLOMACY AND DEVELOPMENT MATTER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                     AMERICA'S GLOBAL LEADERSHIP: 
                  WHY DIPLOMACY AND DEVELOPMENT MATTER

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                           FEBRUARY 27, 2019

                               __________

                            Serial No. 116-8

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
  		[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-366PDF                  WASHINGTON : 2019   



                               

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                     
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     Ami Bera, California, Chairman

Ilhan Omar,Minnesota                 Lee Zeldin, New York, Ranking 
Adriano Espaillat, New York              Member
Ted Lieu, California                 Scott Perry, Pennsylvania
Tom Malinowski, New Jersey           Ken Buck, Colorado
David Cicilline, Rhode Island        Guy Reschenthaler, Pennsylvania
                                     
                    Chad Obermiller, Staff Director
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                    OPENING STATEMENT FOR THE RECORD

Chairman Ami Bera................................................    52

                               WITNESSES

Higginbottom, Honorable Heather, Chief Operating Officer, Care 
  USA, Former Deputy Secretary of State, Management and Resources     9
Natsios, Honorable Andrew S., Director of the Scowcroft Institute 
  of International Affairs & Executive Professor, George H. W. 
  Bush School of Government and Public Service at Texas A&M 
  University, Former Administrator, United States Agency For 
  International Development......................................    16

                                APPENDIX

Hearing Notice...................................................    49
Hearing Minutes..................................................    50
Hearing Attendance...............................................    51

 
   AMERICA'S GLOBAL LEADERSHIP: WHY DIPLOMACY AND DEVELOPMENT MATTER

                      Wednesday, February 27, 2019

                           House of Representatives
       Subcommittee on Oversight and Investigations
                       Committee on Foreign Affairs
                                                     Washington, DC
    The committee met, pursuant to notice, at 2:02 p.m., in 
Room 2172 Rayburn House Office Building, Hon. Ami Bera 
(chairman of the subcommittee) presiding.
    Mr. Bera. Before I gavel in and do my opening statement--
this is all new to me. So but in my three terms in Congress and 
now my fourth term, I really have had the desire to try to work 
in a bipartisan way, especially when we approach foreign 
policy.
    And I think we have been blessed to have the prior 
chairman, Ed Royce, as well as the current chairman, Eliot 
Engel, as our leaders and, historically this had been a 
relatively bipartisan committee looking at solving some of the 
issues and, it is certainly my desire and my intent, working 
with the ranking member, Mr. Zeldin, for us to approach this in 
a bipartisan way because, if you look at our history, America's 
soft power but America's diplomacy and development really has 
been incredibly important to how we have shaped the world and I 
would argue that we have shaped the world for the better.
    I also, when I think about the members on this committee, 
both in the majority and the minority, you look at the quality 
of the membership and the number of veterans, including the 
ranking member who currently, I believe, still serves in the 
Reserves, bringing that experience to have a senior diplomat 
like Mr. Malinowski, to have a refugee who understands that 
experience, like Ms. Omar, and to have folks that either came 
here as immigrants or are children of immigrants.
    I think that breadth of knowing what the American 
experience is and, hopefully, will bring that spirit to who we 
are on this committee. And, again, I could not be more honored 
to have the privilege of chairing what I think is going to be a 
very important committee on oversight. So----
    Mr. Zeldin. Thank you, Mr. Chairman, and it has been a 
privilege over the course of the first couple months here of 
the new Congress with this new subcommittee.
    In conversations and meetings with the chair I could 
certainly confirm his desire, his strong interest, in 
bipartisanship. That certainly will result in a stronger 
product coming out of this committee. It helps empower the full 
committee and I think bipartisanship is something for all of us 
to be very proud of.
    So thank you to Chairman Bera for setting the right tone, 
and with regards to his priorities coming out of the gate I am 
confident that at the end of this Congress a couple years from 
now, a year and a half from now or so, we are going to be able 
to have real product, maybe in legislative form, maybe through 
oversight, that will help strengthen America.
    So I look forward to serving with you and all the other 
members of this committee, and I yield back.
    Mr. Bera. So the hearing will come to order.
    This hearing, titled ``America's Global Leadership: Why 
Diplomacy and Development Matters,'' will focus on why the 
State Department and USAID are critical to the success of our 
country, our foreign policy, and how Congress can ensure that 
they thrive.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length limitations in the rules. I will now make 
my opening statement and then turn it over to the ranking 
member for his opening statement.
    Good afternoon. I want to welcome all the members to this 
first hearing of the Oversight and Investigations Committee. 
Chairman Engel reestablished this subcommittee to strengthen 
Congress's oversight of the executive branch and reassert our 
authority in foreign policy.
    This subcommittee will work closely with the full committee 
and other subcommittees to exercise our role, and as we heard 
this morning from Secretary Albright, it is her belief and I 
think it is all of our belief, as I listen to the questions and 
testimony of members on both sides, that foreign policy best is 
done in a bipartisan way and that the best foreign policy at 
our best is when the executive branch is working closely with 
the legislative branch in partnership, sending a singular 
message to the world so there is no ambiguity to our allies and 
others, and I think, as we mentioned earlier, that really is a 
goal and I would like to acknowledge the partnership that I 
think we will have with the ranking member, Mr. Zeldin, from 
New York.
    To begin with, as we look at Article 1 and, again, 
Secretary Albright said now is the time for Article 1 to really 
reemerge.
    It really has far too long under both Democratic and 
Republican administrations Congress has allowed oversight to 
falter and more and more of our ability, really, has shifted 
over to the executive branch both under Democratic 
administrations and Republican administrations and I think this 
is our opportunity to re-exert that oversight and start 
bringing things back to what we should be doing.
    With that, if I look at our history as the United States, 
particularly in the post-World War II history as we looked at 
the three pillars of defense but also diplomacy and 
development, our foreign policy and our approach to the rest of 
the world really did make the world a better place.
    And I know Mr. Natsios in his opening comments will talk 
about the Marshall Plan and the remarkable work that we did 
rebuilding Europe, rebuilding Japan, going and protecting Korea 
and the miracle that is the Republic of Korea today.
    And you would rightfully argue that our presence around the 
world--the American presence--leading with our values and 
leadership in the 70 years post-World War II made the world a 
better place, made the world a safer place, made the world a 
more democratic place.
    But I think we can also, as we think about the purview of 
this committee over the next 2 years, we understand that the 
world has changed. It is a different place today.
    You see it is not a given that the democratic model of our 
values will rule the 21st century. You see more autocratic 
leaderships--the rise of China, the reemergence of Russia.
    You also see the failed States, the terror States that 
are--have to be approached in a very different way than we may 
have approached a cold war with the Nation State and this is an 
opportune time for us to take a step back, take a deep dive 
into where America's diplomacy is today, where America's 
development is but then also come out of this thinking about 
where we need to go.
    And this committee is Oversight and Investigations and we 
will use the tools that we have available to investigate where 
we are today.
    But that would be only half the battle if we did not 
actually try to come out and present to this administration or 
the next administration and then this secretary of State or the 
next secretary of State a roadmap of where we think we could go 
to continue to lead the world both with our soft power and hard 
power and, again, there is no reason that this next century 
cannot be an American century because the last century 
certainly was an American century.
    And with that, I would like to thank both Ms. Higginbottom 
and Mr. Natsios for joining us and I will turn this over to my 
esteemed colleague, Mr. Zeldin, the ranking member.
    Mr. Zeldin. Thank you, Mr. Chairman. This is the first 
hearing of the Subcommittee on Oversight and Investigations. I 
look forward to working with you on bipartisan priorities we 
both share.
    This hearing is, certainly, the first step. We both believe 
in American leadership and Congress's role in oversight and 
investigations.
    I wanted to extend my thanks to today's two witnesses for 
being here today to discuss the importance of American foreign 
policy, aid, and development around the world.
    There is no question that targeted and measured foreign aid 
and level-headed diplomacy further American national security, 
business, and humanitarian interests.
    Today, we are not here to question this consensus but, 
rather, examine the tools and resources used in these endeavors 
in an effort to ensure they are the most effective and 
efficient means possible.
    Too often, we have witnessed programs with good intentions 
originally established to forward American values and improve 
the lives of those around the world go off the tracks and it is 
our responsibility as the Oversight and Investigations 
Subcommittee to monitor these programs and help correct course 
when necessary.
    For example, and given the backgrounds of our two witnesses 
and I am here with Congressman Perry, who has joined us, I will 
touch on the stated mission of the previously U.S. taxpayer-
funded United Nations Relief and Works Agency, also known as 
UNRWA, which has a mission to provide humanitarian support for 
Palestinian refugees in Jordan, Lebanon, Syria, and the West 
Bank and Gaza.
    The education of children, especially those in war-torn 
areas, is a noble mission. But over the past 6 years, UNRWA and 
the State Department have failed to provide Congress with an 
accurate picture to implement oversight measures by 
deliberately withholding information and certain reporting 
requirements and we recently found out why.
    In a recently declassified portion of a GAO report, we 
learned that the textbooks in the educational program of UNRWA 
were delegitimizing Israel and that supplementary material to 
counter this textbook content that promotes anti-Semitism, paid 
for with American tax dollars was being rejected on the ground.
    The underlying mission of foreign aid programs like UNRWA 
is critical. But holding them to that mission and ensuring its 
funding goes to furthering that goal may be even more 
important.
    U.S. foreign aid should be an investment, building a strong 
foundation with our allies. However, providing economic 
assistance to the Palestinian Authority, which supports a 
``pay-for-slay'' program to financially reward terrorists for 
killing innocent Americans and Israelis is in direct violation 
of this ideology.
    Last Congress, the Taylor Force Act was passed and signed 
into law. It withholds economics assistance to the Palestinian 
Authority until it publicly condemns these acts of violence and 
stops inciting and rewarding the terrorists who perpetrate 
these horrific crimes, therefore protecting the innocent 
Americans and Israelis and better allocating these limited 
foreign aid resources.
    The United States must support aid programs that promote 
the interests of our Nation and, therefore, of our allies. For 
example, foreign aid that promotes good governance in a country 
like Venezuela is a proud show of what an important investment 
this funding can be.
    There are so many different examples all across the entire 
map for the entire world that this committee can get into. Just 
touching on a couple of examples there, but I am sure we will 
hear a lot more over the course of today's testimony with our 
two great witnesses.
    There should be an integrated policy approach to aid and 
diplomacy in which we leverage greater influence per aid 
dollar. We must employ greater accurate oversight and 
accountability internally within the State Department as well 
as over these foreign assistance programs ensuring those 
utilizing U.S. funding are better aligned with our Nation's 
values.
    We need to examine whether the millions of dollars we give 
to multilateral agencies serve our needs and whether they 
continue to maintain the high standards Americans would expect.
    We need to share the burden so that we can offer the 
opportunity for other regional actors to contribute as well. 
Are there administrative efficiencies we could implement to 
make our dollars go farther? How can we improve transparency 
and accountability in a manner that does not hinder development 
efforts?
    These are the questions I hope our witnesses will address. 
Thank you both again for being here and I look forward to your 
statements.
    I would like to thank our subcommittee chairman, Mr. Bera, 
full committee chairman Mr. Engel, and lead Republican, Mr. 
McCaul, for their leadership and assistance on these issues.
    I yield back.
    Mr. Bera. I will now introduce the witnesses.
    As I stated earlier, you know, Ms. Heather Higginbottom is 
the chief operating officer of CARE USA, one of the world's 
largest humanitarian organizations. She served as deputy 
secretary of State for management and resources in the Obama 
Administration.
    Andrew Natsios is currently the director of the Scowcroft 
Institute at Texas A&M. He served as the thirteenth 
administrator for the United States Agency for International 
Development.
    Thank you both for being here, and with that, Ms. 
Higginbottom.

 STATEMENT OF MS. HIGGINBOTTOM, CHIEF OPERATING OFFICER, CARE 
USA, FORMER DEPUTY SECRETARY OF STATE, MANAGEMENT AND RESOURCES

    Ms. Higginbottom. Chairman Bera, Ranking Member Zeldin, and 
distinguished members of the committee, thank you for the 
opportunity to testify as you work to make the State Department 
and USAID more effective and more efficient. I have edited my 
remarks for time and ask that my full statement be included in 
the record.
    Mr. Bera. And without objection, your full statement--
written statement will be part of the record. Thank you for 
reminding me that I was supposed to do that.
    Ms. Higginbottom. For the last 6 years, first as deputy 
secretary of State for management and resources and currently 
as CARE chief operating officer, I have had the privilege of 
seeing American diplomacy and development in action and the 
responsibility of thinking about how to strengthen it.
    With just about 1 percent of the Federal budget, the United 
States gets no better return on its investment than the work of 
our diplomats and development professionals which saves 
millions of lives, builds stronger economies, and creates a 
safer world.
    Mr. Chairman, I know that it has never been popular to 
invest money overseas. President Reagan acknowledged that, 
quote, ``Foreign aid suffers from a lack of a domestic 
constituency.''
    The very DNA of care is a daily reminder that Americans 
have always stepped up to address global challenges. Seventy-
three years ago, a small group of Americans joined forces to 
create the first ever CARE packages for starving survivors of 
World War II.
    Today, instead of delivering aid in a box, CARE works to 
address the roots of poverty using proven tools to empower 
women and girls and help entire communities create long-term 
prosperity, stability, and resiliency.
    We are here today to focus on what we can do better. But we 
should not lose sight of what the U.S. already does so well and 
I saw it firsthand in 2014 as the Ebola outbreak in West Africa 
threatened whole countries.
    American leadership made the difference. Working with 
partners in a coordinated, rapid, innovative way, we brought 
every tool we had to bear from deploying civilian health and 
development experts to engaging our military and Border Patrol 
agents.
    We work with Congress to provide resources, pharmaceutical 
companies to develop a vaccine, manufacturing companies to make 
protection suits for health workers, and we galvanize partners 
to build an aircraft to evacuate patients with infectious 
diseases.
    As a result, Ebola was contained in West Africa and in our 
interconnected world where a disease knows no boundaries we 
should be building upon, not weakening, instruments of 
diplomacy and development.
    The U.S. is a catalytic leader and what we do encourages 
other countries to act, and it is why over the past 25 years 
the number of people worldwide living in extreme poverty has 
been halved as has the number of women dying during pregnancy 
and the number of children dying before their fifth birthday, 
and this has been a bipartisan effort across Republican and 
Democratic administrations.
    Despite these clear results, the president's budgets for 
Fiscal Year 2018 and 2019, and we fear once again in Fiscal 
Year 2020, have proposed slashing foreign assistance by 30 
percent, jeopardizing countless lifesaving programs.
    We appreciate that Congress has rejected these cuts, but 
there has been damage done due to uncertain funding levels and 
time lines, the threat of recisions packages, and government 
shut downs.
    Just earlier this month, we came days away from halting a 
Food For Peace program in Haiti that supports 100,000 
chronically poor households. We are very grateful to our USAID 
colleagues who managed to release funds at the eleventh hour.
    But when lives are on the line we cannot afford crises of 
our own making. To be sure, the State Department and USAID are 
not perfect institutions. The 2015 Quadrennial Diplomacy and 
Development Review, which I oversaw, contains many 
recommendations to make these institutions more efficient and 
more effective. I will highlight just three.
    First, the currency of the State Department is information 
and relationships, and yet there is no enterprise wide system 
for organizing, collecting, and sharing information.
    Second, better utilization and expertise in data analytics, 
science, and technology is essential, and the siloed natures of 
both the State Department and USAID mean that crosscutting 
analysis and engagement is often unavailable.
    Third, performance management and strategic planning at 
both agencies should be strengthened and collaboration and 
communication across agencies should be enhanced.
    As the history of the CARE package shows, often the best 
way to combat fragility, address poverty, and prevent mass 
displacement is by harnessing the generosity and talents of the 
American people in partnership with communities around the 
world.
    This work, backed by continued American engagement and 
diplomacy in development, is essential to building a future 
worth having for ourselves, our children, and our neighbors 
around the world.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Higginbottom follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 STATEMENT OF MR. NATSIOS, DIRECTOR OF THE SCOWCROFT INSTITUTE 
 OF INTERNATIONAL AFFAIRS & EXECUTIVE PROFESSOR, GEORGE H. W. 
   BUSH SCHOOL OF GOVERNMENT AND PUBLIC SERVICE AT TEXAS A&M 
  UNIVERSITY, FORMER ADMINISTRATOR, UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Natsios. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. I want to thank you for the 
opportunity to speak today on the importance of foreign aid 
programs.
    My comments today are my own. I am not representing Texas A 
& M Univ. the Bush School of Government and Public Service at 
Texas A&M.
    Since World War II, the United States foreign aid programs 
have played a leading role improving the livelihoods of the 
world's poor, cultivating good governance and democratic 
practice, protecting human rights, and accelerating economic 
growth.
    We are living through the greatest golden age in civilized 
history for the common people of the world. The reason I say 
that is based on the statistic that Ms. Higginbottom here just 
mentioned.
    There has been a dramatic improvement in the lives of the 
poor. Ninety percent of the population a hundred years ago in 
the developing world was poor. In fact, there was not even a 
developing world; there were colonial empires a hundred years 
ago.
    But that has dramatically shifted. The number of poor 
people has dramatically declined. The number of democracies, 
until recently, has been on the rise. Certainly, there have 
been terrible abuses of human rights. I know this firsthand: I 
was in the center of the Rwandan genocide. I was there when 
Darfur took place. I like to think we blew the whistle in USAID 
about what was happening in Darfur before anyone else even 
noticed what was going on. But the fact is that people did not 
even know what human rights were a hundred years ago. They did 
not use those words, and there were no institutions protecting 
human rights.
    We have made enormous progress and we are living through 
it, but we do not see the forest from the trees. We do not see 
what things were like 200 years ago, or 300 years ago, when a 
life expectancy of 40 years was regarded as long.
    The Marshall Plan was our first organized, systematic 
effort to extend American humanitarian power abroad in a 
lasting way. We had carried out humanitarian efforts before: 
Herbert Hoover ran the greatest food aid program in world 
history during World War I and its the immediate aftermath. But 
that was a temporary program. By the way, Hoover also went into 
Russia in the middle of the Great Famine after Lenin took over. 
It is a very interesting story regarding how he prevented the 
central government from manipulating the food aid at that time. 
The same problems we have now concerning the manipulation of 
food aid took place in Russia in the early 1920's. Hoover 
simply told Lenin that the U.S. would leave the country if he 
did not stop interfering. We would not distribute food on a 
political basis. It will only be done based on need.
    That is one of the hallmarks of our aid programs, 
particularly in humanitarian assistance and in health programs. 
We distribute aid based on need.
    Now, I understand some aid has to be distributed to our 
allies--economic aid, that sort of thing. But when it comes to 
the survival of people, including women, and children, and 
noncombatants, we need to focus on aid distributed based on 
need, not based on interest.
    USAID helped the United States win the cold war more than 
most people realize, even within USAID. For example, in South 
Korea there are amusing stories regarding how intrusive USAID 
was in the Park government in terms of forcing reforms. The 
same thing happened in Taiwan, in Indonesia, and in Thailand. 
In Greece and in Turkey in the early 1950's after USAID 
encouraged reforms Stalin worked to destabilize both countries 
in the late 1940's.
    We have had remarkable successes in countries that were 
extremely poor and are now developed countries in Latin 
America, in Asia, and, more recently, Africa.
    One of the greatest success stories--my favorite--is the 
Green Revolution. That was an effort started by Dr. Norman 
Borlaug, who was a professor at Texas A&M later in his life; we 
have a Borlaug Institute for International Agriculture there. 
The Green Revolution doubled yields in Asia at the same time 
that Mao was killing 45 million Chinese through the Great Leap 
Forward Famine, USAID's work increased and contributed to a 
dramatic decline in famine in Asia.
    In fact, a study has been done on the topic. The book is 
called ``Mass Starvation'' by Alex de Waal and it came out last 
year. Alex de Waal is a good friend of mine, he teaches at 
Tufts. In the book, he says that with the creation of the 
international humanitarian response system, there has been a 
massive decline in the number of famine deaths, since 1980.
    He traced famine deaths from 1870 until 2010. So, we have 
empirical evidence showing that starvation deaths and famines 
have massively declined at the same time that this 
international response system was set up.
    Now, I have mentioned in my paper four challenges. I am 
running out of time now so I cannot go into them, but they are 
the forced displacement crisis, the pandemic disease risk, the 
risks posed by fragile and failing States, and food price 
volatility (which was a major factor in the uprisings in the 
Arab world). People said it was the Arab Spring. It was not a 
spring. It has been a nightmare in Syria, Yemen, and Libya in 
particular. There is a direct connection between food price 
increases (which make people hungry when theye cannot afford 
the food)--and political uprisings. The evidence--empirical 
evidence from political scientists and scholars--is very 
convincing in showing that there is a direct relationship.
    There are three things I propose in my testimony that we 
need to do to address these challenges. First, we must 
decentralize back to the USAID missions. The reason we were 
successful in the Cold War is that the mission directors (and, 
I might add, our Ambassadors) had far greater discretion to 
carry out policies and programs at the country level than we do 
now. Everything has been centralized over the last 30 years, 
and it is not helping things because we, in Washington, are 
separated from the reality of what is going on in these 
countries.
    Second, we need to deregulate USAID. USAID is overburdened 
with the regulatory requirement that have been imposed on it in 
order, supposedly, to reduce abuse. These reporting 
requirements do not reduce abuse. They just generate a huge 
amount of paperwork. The abuse still takes place anyway, and it 
costs USAID a lot of money to fulfill these reporting 
requirements.
    The third proposal is consolidation of programs. Having 
USAID programs at 18 different Federal agencies is very unwise.
    Those are the three reforms that I propose at the end of my 
written testimony.
    Thank you very much.
    [The prepared statement of Mr. Natsios follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bera. Thank you.
    Obviously, you have got a lot of say there and all of it 
really important. I will go ahead and start the questioning.
    Ms. Higginbottom--and let me frame it this way. I think it 
is incredibly important for us to, you know, recognize our 
veterans every day and have a day like Veterans Day to just 
remind us of what they do to protect our freedoms and represent 
us around the world and the sacrifice that they and their 
families make.
    But I do think far too often we forget about the others 
that are out there representing us from our diplomats to our 
aid workers to the folks that are working through the NGO's 
and, you know, I just want to make sure that we do not lose 
sight of that and, you know, our generals are the first ones to 
admit that that partnership that they have with the development 
community and the diplomatic community is incredibly important, 
because it is this combination of our hard power and our soft 
power.
    You have been inside the building at State Department and 
certainly have looked at how the department is working 
currently and if you would just make a few comments on, as we 
get this committee underway, some of the things that we should 
be thinking about and how we best could work with the folks 
inside the building.
    Ms. Higginbottom. Thank you. Thank you, Mr. Chair.
    I think that this committee can play a really important 
role in highlighting some of the challenges that both the 
Foreign Service and the civil services face as well as to 
understand, to your point, Ranking Member, about how to have 
oversight of program and ensure we have accountability and that 
we have the right processes in place for those things.
    With respect to some broad areas that I think are important 
for the committee to consider, we are seeing a decrease in the 
number of people taking the Foreign Service exam and we are 
seeing some attrition.
    The building is built on the professional nature of its 
Foreign and civil service employees. I think it is really 
important that we understand what is happening there. We need 
the best and brightest to represent us around the world and 
that is really critical.
    I mentioned in my testimony something that I am really 
seized of and I want to just mention it again, and that is that 
we do not have an enterprise wide knowledge management system 
and it is inefficient and ineffective to have a personal system 
that is contingent upon rotations with no clear way of 
maintaining information and relationships that is organized and 
centrally housed.
    I think that is a critical issue. It takes investment and 
it is complicated, but I think it is really, really necessary.
    Mr. Bera. Great. Thank you.
    Mr. Natsios, you are a long-serving USAID director and, 
certainly, served at a very interesting time. As you think 
about your lessons and as you think about where we need to go 
in aid and development, we are seeing other governments, you 
know, taking a different approach, the Chinese for one 
certainly how they are approaching the rest of the world.
    What would, if you were to just imagine the absence of the 
U.S. presence there, who is going to fill that? And then the 
flip side is the importance of how should we be thinking about 
this as we go forward as we think about aid and development in 
the 21st century and the importance of the U.S.'s role in that 
capacity and what it says to the rest of the world when the 
United States shows up.
    Mr. Natsios. Well, I can tell you I am a very strong 
internationalist. I am right of center rather than left of 
center. But that is where the bipartisan nature of this 
coalition is.
    There are conservative internationalists and there are 
liberal internationalists, and I think we agree on more than we 
disagree, frankly.
    Mr. Guterres, the secretary general of the United Nations, 
publicly said something we all knew privately. The U.N. does 
not work without American leadership. It does not. President 
Bush used to have a weekly call with Kofi Annan, the U.N. 
Secretary General at the time.
    He would sit there and go through a list of things we 
needed done and Kofi would say we need help on this or that. 
They were not the best of friends, I have to tell you. They 
disagreed on some issues.
    But they worked together on a regular, systematic basis and 
it made a difference. That relationship between the U.S. and 
the U. N. is weaker now, and it has been weakening for some 
time. That is not a good thing.
    I am an Africanist--that is where I spent a lot of time. My 
African colleagues tell me that African States that signed 
these infrastructure agreements with the Chinese are kicking 
themselves for failing to read the fine print.
    One colleague told me that the financing agreement says if 
the recipient country cannot pay the bill, the Chinese take 
over their ports. I think it was in Zambia recently that the 
Chinese took over a mine.
    We do not do things like that. Everybody knows the United 
States protectds its interests. But we have other interests, 
including the broader development of poor countries.
    It is in our interest to have a stable world order in which 
fewer people are poor. No one thinks that the Chinese have that 
anywhere in their foreign policy.
    If the Chinese displace us--which I do not think they are 
going to do--I think this notion the Chinese are going to take 
over the system is nonsense. It is not going to happen for a 
variety of reasons that are beyond this hearing.
    But if it should happen, the international system will not 
be functional.
    Mr. Bera. Well, my sense, having traveled a lot and talked 
to leaders around the world, is they would much rather the U.S. 
presence be there because they know, you know, obviously, we 
have our interests. But we do act in a much more benevolent way 
in helping build the capacity of the countries that we are 
involved in.
    In my remaining time, you know, Ms. Higginbottom, you are 
now at CARE International and as we think about our role in 
diplomacy but, more important, aid and development, how should 
we be thinking about our partnership with the NGO sector and 
also, potentially, with the corporate sector?
    Ms. Higginbottom. I think in the NGO sector we look at, 
across the spectrum, at partnerships. That is how we work. 
Whether it is with USAID or with private sector companies with 
other INGO's, and I think as we see the world changing and 
particularly the development landscape changing, what we see is 
that official development assistance, as critical as it is, is 
a very small percentage of private revenue flows that are going 
into countries, and that means if we are going to be really 
effective with our work we have to look across a whole range of 
partnerships.
    And I think as we look at State and USAID, ensuring they 
have the capacity--both agencies--to develop those partnerships 
and relationships and work more seamlessly across different 
sectors, I think we will be much more effective and efficient 
with our--with our resources.
    Mr. Bera. Well, maybe expanding on that then as well, 
knowing that we have limited and we certainly have challenges 
that we will have to look at here domestically, I think my 
perception is, it will not be the United States going it alone.
    We now have multiple allies that are developed nations and 
so forth and the president is not incorrect that we should be 
working with them.
    Maybe, Mr. Natsios or Ms. Higginbottom, how do you envision 
us working with the international community? And, again, let me 
couch I think the Americans should be leading because of our 
leadership and our values. But what has changed from the 20th 
century to the 21st century?
    Mr. Natsios. I think when political systems--democratic 
systems in particular but even dictatorships get under severe 
stress they begin to behave differently.
    And it is not just in the United States. This has been 
happening across the world in other democracies. You are seeing 
what is happening in Europe right now.
    The Democratic Party of Sweden is actually the Nazi Party 
of Sweden from the 1930's. It got 17 percent of the vote in the 
last Swedish election. That is very disturbing.
    The auditor general, which is a big job in this party, was 
a member of the Waffen-SS. He is an old man, but he was a 
member of the Waffen-SS, one of the most horrendous parts of 
Hitler's structure of terror.
    This party received 17 percent of the vote in Sweden 
because of the immigrant issue in Europe. So it is an issue--
these issues are churning across the world.
    We interviewed someone for admission to the Bush School. 
She is Chilean and works in refugee issues. She told me that a 
million refugees have escaped to Chile--a million.
    The Refugee crisis is having an effect across the world, 
and that is why people start turning inward, becoming more 
protectionist, more ultra nationalist, more isolationist, and 
that is not good.
    Mr. Bera. Mr. Natsios, I notice that votes have gotten 
called.
    Mr. Zeldin, I think you can probably do your questions and 
then we will recess and come back after votes.
    Mr. Zeldin. Thank you, Mr. Chair.
    Earlier in my opening remarks I referenced the GAO report 
that Congressman Perry and I recently secured the 
declassification of revealed a number of concerning issues 
regarding staff who failed to implement appropriate policies 
and push back with the host country.
    When UNRWA developed complementary teaching materials and 
seminars to address concerning content following three textbook 
reviews, some staff refused to attend training and workshops 
and utilized this supplementary material, which countered the 
content that was not aligned with U.S. values and, in many 
cases, not aligned with reality.
    I want to ask you this question more generally. It is not 
specific to that report. But based on your experience, how did 
you deal with local beneficiaries who did not implement 
appropriate standards?
    Mr. Natsios. Well, Congressman, I hesitate saying this, but 
I will say it. It is not this committee, but this Congress and 
other committees have placed draconian limits on American 
diplomats and USAID officers getting out-- not just of the 
capital city--but out of the mission itself.
    The USAID mission in Kabul is called ``the prison" by the 
USAID staff. You can go for one year on duty in Kabul and never 
leave the mission. They will not let you out because of the 
security restrictions.
    Mr. Zeldin. Just so you know, the question, though, is with 
regards to the local----
    Mr. Natsios. The question is: How do you monitor programs 
if you cannot go out and see them? If you to improve 
accountability, you need to take the authority over our 
embassies and missions out of those other committees, because 
they have told everyone there is no tolerance for risk. If 
there is no tolerance for risk, we should not have embassies. 
We should not have missions around the world. You have to get 
out of the capital city, out of the mission, and out of the 
embassy to find out what is going on. These abuses are taking 
place because we cannot see what is going on.
    Why? Because of these security restrictions and, more 
importantly, because of restrictions on how many USAID officers 
and diplomats can be assigned to these countries. We hire more 
Foreign Service Officersand then we cannot send them out to the 
field.
    I used to blame the State Department for this until I 
became a diplomat and realized it is not the State Department 
that is the problem. It is Congressional Committees, but it is 
not the four committees that oversee Foreign Affairs.
    The committees that are the problem are giving exactly 
opposite instructions than all of you are giving to the State 
Department and USAID, and that is the problem.
    There are conflicting instructions in terms of access and 
openness to get out of the capital city and the mission and the 
embassy.
    Mr. Zeldin. Ms. Higginbottom, if you could, I guess, just 
speak to the interaction with the locals, based on your 
experience. What else can we improve upon?
    Ms. Higginbottom. I do--I just want to agree with what Mr. 
Natsios said. The issue of how we manage risk, not how we 
eliminate it, has got to be taken up and I think this committee 
can play an important role because a lot of the concern we 
would have about program implementation would be the limit that 
we would have imposed for mobility and not having the ability 
to really know what is happening in a given program.
    When you do know that there are--there are a lot of 
mechanisms, I think, actually to deal with staff that are not 
following policy or guidelines and when it is very clearly the 
case then the line management has a lot of tools at their 
disposal to take action and they should.
    The inspector generals at both agencies play an important 
role. I met with our inspector general every week. It was not 
my favorite meeting but it was really important, and I think 
they can highlight critical areas where we need to focus and 
where there are problems. They do inspections of embassies. 
They can highlight some of these issues.
    So I think there are tools. I do think the risk issue is 
really important and I do think that this committee can play an 
important role in helping to address that.
    Mr. Zeldin. OK. So I am going to just continue based off of 
your answers as opposed to--I had a couple of other followup 
questions.
    But I guess going back to Mr. Natsios, can you now take 
your point, I guess, to the next level a little more? Is there 
more specificity you can share? I know you did not--you were 
not naming other committees but what can we get out of your 
exchange that we can act on?
    Mr. Natsios. Well, you cannot reassign responsibility 
within the congressional system.
    But if I had my way, the only four committees that would be 
allowed to deal with the State Department and USAID would be 
the four appropriators and the authorizers in the House and the 
Senate.
    Even though I have had disagreements with these committees 
over the years, I have never seen then do things that are 
damaging to either institution. But I have seen other 
committees in this Congress who do not travel.
    They do not know what is going on in the world, and their 
objective is not the carrying out of American foreign policy or 
USAID programs. It has nothing to do with party. The Democrats 
and the Republicans are equally damaging to the operational 
capacity of State and USAID.
    I wrote a article for the Weekly Standard about 10 years 
ago called ``American Fortresses,'' because the embassies often 
look like medieval fortresses.
    Mr. Zeldin. Well, we all have more to talk about. I know 
that--I will yield back to the chair at this time because I 
know we only have a few minutes left of votes.
    Mr. Bera. I want to--at this time the subcommittee will 
recess so that members can vote and then the hearing will 
resume immediately following the votes.
    Thank you.
    [Recess.]
    Mr. Bera. The committee will come to order. I ask that, you 
know, at this juncture, Mr. Perry from Pennsylvania. So we will 
go to you.
    Mr. Perry. Thank you, Mr. Chairman. I appreciate coming 
directly--oh, do you want to defer to the----
    Mr. Bera. OK. Thank you for that. See, we are already 
acting in a bipartisan manner, as you know, working together. 
What a tone.
    Mr. Malinowski.
    Mr. Malinowski. OK. Thank you. Thank you.
    Thank you for your testimony earlier today and for your 
patience with us as we vote.
    Let me start with this question to you, Mr. Natsios. As a 
general matter, I assume you would agree that when the United 
States military deploys to a complicated dangerous place it is 
helpful to have civilian agencies involved as well providing 
humanitarian assistance, development, reconstruction, good 
governance, and all of that. I presume we are in agreement. 
Yes.
    And Ms. Higginbottom, OK. Let me--let me apply that 
principle then to a situation we are dealing with right now and 
that is Syria.
    A number of us, on a very bipartisan basis, over the last 
few weeks and the last few days including at the Munich 
Conference made an effort to try to persuade President Trump 
not to follow through on his policy or tweet or whatever it was 
to pull all of our forces out of that country prematurely 
before the mission was complete.
    And he heard us and I think, fortunately, made the decision 
to retain around 400 troops with our allies as part of the 
effort in that country.
    But what has been lost in the debate over our presence in 
Syria is that late last year the administration also made a 
decision to completely end, not to spend some $230 million that 
the Congress had provided for stabilization programs in Syria 
because, they argued, others, particularly the Saudis, could 
fill our shoes.
    So I wanted to ask you, do you think that is a good idea if 
we have 400 troops or any number of troops deployed in Syria to 
have absolutely no civilian component to that mission?
    Mr. Natsios. Congressman, I was the co-chairman of the 
Committee on Human Rights in North Korea with my good friend, 
Roberta Cohen, when you were assistant secretary of state. You 
were our biggest supporter in granting money for investigating 
the outrageous atrocities that the North Korean regime has 
committed against its own people, and I do want to thank you 
for that.
    Mr. Malinowski. Thank you.
    Mr. Natsios. It made a very great difference to us. We are 
a small organization and we appreciate it. Thank you.
    The first thing is that it is not about how much money we 
spend. It is about who is spending it and how it is spent. 
USAID has expertise in war zones that even our friends in 
Europe do not have--and I think some of our friends in Europe 
do some things very well.
    We perhaps, because of the U.S. being a great power, have 
mastered, though not completely, how to work in very difficult 
places and run programs.
    The Saudis have no experience in this. They do not have any 
experience even in stable environments. That is point number 
one.
    It is not going to work with the Saudis taking over in 
Syria. Second, if we are going to keep troops on the ground, we 
need to have a civilian component next to them.
    So I, frankly, do not support the withdrawal of these 
civilian personnel from Syria. I think we are going to have to 
send them back in again. I know we keep telling the Russians 
and the Iranians they are going to fund the reconstruction.
    I have to say the Russians do not have a lot of experience 
doing reconstruction work in the developing world and the 
Iranians have no experience.
    Mr. Malinowski. Right. Well, we are keeping them as--so we 
are actually keeping the troops with no----
    Mr. Natsios. I know, but what about the civilian component?
    Mr. Malinowski. Nothing. It has been completely eliminated 
and, I mean, does that make our troops safer? I mean, is there 
an issue potentially with--in terms of the safety of our troops 
if there are no civilian eyes or ears? If we are not working 
with local governments? If we are not working with NGO's on the 
ground to counter extremism, which we were doing?
    We were funding in Syria these extraordinary women-led 
human rights organizations that operated under ISIS control 
and, in my view, are the most effective counterweight to ISIS 
at a time when, well, they were obviously risking their lives. 
Would the Saudis fund those kinds of organizations, do you 
think, if we turned it over to them?
    Ms. Higginbottom. I would not expect that they would and I 
agree that--Congressman, that the type of relationships and 
engagements that you have with some civilian capacity in a 
context like that is really important and I do think it can 
have a direct contribution to the security of the troops. I am 
pleased to see that there has been a shift in that--in that 
posture from the president.
    Mr. Malinowski. Thanks. And just, finally, a comment on a 
different issue that has come up--our assistance in Palestinian 
areas--and I take the point about criticism of UNRWA.
    But let us also not forget that we have completely 
eliminated USAID programs operating to improve water systems, 
to encourage Palestinian and Israeli children to get to know 
each other, to support schools.
    Presumably, you do not think USAID was teaching people to 
delegitimize Israel. Who do you think benefits more from the 
complete elimination of those programs, Israel or Hamas?
    Mr. Natsios. I think eliminating the programs helps Hamas. 
That is not what the intention was by the administration, but 
that is what the effect is.
    I can tell you from personal experience, and I might add a 
little story. When we went into Afghanistan the first thing we 
did, not just to educate kids but to get them off the streets 
into school, was to print 7 million textbooks from the old 
royal curriculum used when the king was in power. These were at 
the University of Nebraska, where there was an archive from 
Afghanistan.
    I had nine Afghan intellectuals--journalists, women's 
groups, and academics--read all 200 textbooks to make sure 
there was no anti-Semitic or anti-Russian content. (There was 
anti-Russian content because of the civil war.) Female stick 
figures--stick figures-- had been scratched out from all the 
textbooks.
    We fixed these issues and I had the Afghan intellectuals 
read the books twice to make sure we did not miss anything. The 
point is that there is a utility in having USAID there because 
we are sensitive to these issues, and without us there I think, 
frankly, the extremists will have more license.
    I understand the pressure of politics. I was in the 
legislature of Massachusetts for 12 years. But I think it is 
unwise to shut these programs down. That is my experience.
    Mr. Malinowski. Thank you. Fully agree.
    Mr. Bera. Thanks, Mr. Malinowski.
    And Mr. Perry from Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman. Ladies and gentlemen, 
thanks for being here. These foreign assistance dollars are 
precious and, of course, I do not have to tell you or remind 
you they come from the hardworking taxpayers of the 10th 
District in Pennsylvania and everybody else's district here, 
too. So it is really important that we safeguard them.
    And, you know, oversight is important and I am sure you are 
familiar with the stories of fraud and abuse and so this is the 
Oversight Committee. I think it is important to highlight some 
of these things and then just have a discussion about it.
    There is a 2018 report that assistance provided to 
Afghanistan through the reconstruction trust fund was at risk 
for misuse. The special inspector general for Afghanistan 
reconstruction who was appointed by Congress stated that once 
the U.S. or any other donor provided its contributions to 
fund--to the fund, neither the World Bank nor USAID could 
account for how those funds were specifically spent.
    There is also--this goes back a way--but, you know, 
because, Mr. Natsios, I have listened to some of your comments 
and also Ms. Higginbottom. I want to get to some of those about 
why this is happening if you are not able to monitor correctly.
    But this goes back to 2013. An investigation by the Wall 
Street Journal found that more than 20 percent of the malaria 
drugs sent to Africa under the president's Malaria Initiative 
were stolen or diverted each year and then sold on the black 
market.
    Is the circumstance that you have described where the risk 
assessment or the aversion to risk is so great that we are not 
letting the people that would oversee--that staff that oversee 
these funds and these programs, is that--is that something 
fairly new?
    Is that the--let us be candid--is that the advent of this 
administration or does it go prior to this administration?
    Mr. Natsios. Oh, no. This goes back 20 years. This goes 
back to the embassy bombings in Nairobi and Dar es Salaam in 
the 1990's. I wrote an article, as I said, for Weekly Standard 
in 2006 called ``American Fortress.''
    But it was based on what had happened earlier. This is now 
new at all.
    Mr. Perry. So----
    Mr. Natsios. And it is not just in Afghanistan and Iraq. 
This is across the world.
    Mr. Perry. Across the spectrum. So when the IG does 
inspections and finds these flaws and the lost money, so to 
speak, or the evidence of lost money, do they include in their 
report the circumstances, and why is that? Do you know?
    Mr. Natsios. Well, I am being very candid here.
    The special IG for Afghan reconstruction is outrageous in 
some of the accusations he makes. I will give you an example. 
He said: we went to a school that USAID rebuilt. There was no 
one in the school. That is true.
    You know why there was no one in the school? Taliban had 
taken out the headmaster and beheaded him in front of all the 
teachers and the children. If your child watched the headmaster 
being be headed,--would you send your child back to the school?
    Of course the school was empty. He did not mention that in 
the audit, however. In fact, their people did not even go to 
see for themselves. They sent someone else from one of the 
ministries to go in. Half of his staff has never even been to 
Afghanistan.
    I think the regulators overstepping, and I say that 
carefully. The IG for USAID, in my view, does very good work.
    But he has to be in competition to find more abuse than the 
special IG. They compete with each other, and if he does not 
show that he is saving money, his budget gets cut by the 
Congress.
    I wrote an article about this in 2010 called, ``The Clash 
of the Counter-Bureaucracy and Development.'' You can access it 
on the website of the Center for Global Development.
    I would urge you to read it--I know it is a long article 
but your staff could read it. It discusses the consequences of 
these systems that have been set up. When you have competing 
IGs to see who can find more abuse, you get inaccurate 
reporting.
    Are there problems in USAID? Absolutely. But half the 
problems that I have seen they got reported by the IG because 
they never discovered them.
    Ms. Higginbottom. If I could just add very briefly, I think 
that as USAID and State, to a certain extent, have come up with 
new ways to try to monitor when they are limited in access, 
particularly in places like Afghanistan, questioning the 
efficacy of those frameworks I think is worthwhile because they 
are really committed to ensuring that the programs that are 
being funded work and that they are not subject to fraud.
    But I think there is a good conversation to have to see 
whether that oversight--the accountability framework that USAID 
and State are doing is effective and I do think that the risk 
issue is more acute in some places than others. But post-
Benghazi it is more--it has been more constrained.
    Mr. Perry. Sure. So what is the--if we are not--you know, 
these are all policymakers up here interested in making sure 
that you have the resources that you need, that American 
foreign policy and interests are furthered and that is what we 
are doing here.
    So and we count on things like the IG, right? I mean, that 
is what we are supposed to do. We are not there and they are, 
allegedly. So is there--what is the mechanism for people 
inside--and thanks for the indulgence, Mr. Chairman--inside the 
organizations?
    What is the--what is the internal mechanism? Is there an 
internal mechanism when you--you said, you know, they are not 
reporting on half the things that you saw that apparently you 
found problematic at some level.
    Is there a mechanism for you to find a way to report and 
make sure the right thing is done?
    Mr. Natsios. As Administrator, I used to meet with the IG 
every week. We had a very good relationship. When I saw 
something wrong I would tell him: I want you to go in and find 
out what is going on here.
    There are two functions of the IG. One is to make sure the 
management systems work properly and conduct do financial 
audits. That is sacrosanct. We cannot touch that.
    The other function is to look into fraud and abuse. Most of 
the things that the IG investigates USAID officers report.
    The IG does not discover the abuse. We discover the abuse 
and we call in the IG. I can give you a lot of examples--some 
of them entertaining, some of them very disturbing.
    But the staff calls up the IG--that is the standard 
procedure in USAID. If you discover something wrong and you do 
not report it, you can get fired for not reporting.
    Mr. Bera. Mr. Perry, if I can also--I would like that to be 
part of our role as congressional oversight as well. You know, 
if we are authorizing and appropriating funds for programs I do 
think it is part of our responsibility to say are these 
programs actually working the way they are--are we using the 
taxpayer dollars in the most effective way.
    And, you know, if programs are working really well in one 
part of the world, you know, certainly, thinking about how you 
take that and, you know, if programs are not working or funds 
are not being used the way we intended them to be used as 
Congress.
    I also think it is our responsibility to expose that and--
--
    Mr. Perry. Without a doubt, and I appreciate the chairman's 
indulgence. And for the purposes of the discussion, it seems to 
me that there is somewhat of a breakdown in the system here and 
maybe, you know, while we rely on the IG as well is there any 
way reconcile between what the folks that work for the agency 
report to the IG and what the IG reports to us, right? I mean--
--
    Mr. Natsios. The special IG for Iraq reconstruction was 
more responsible than the one in Afghanistan, in my view. I 
worked with the guy. I sent the IG into Iraq. When the Marines 
took the city, the IG and the USAID officers were right behind 
them.
    The mission director called me up and said, Andrew, could 
you have given me a month to set the systems up before you sent 
the IG in? I told him, ``I do not want any problems". We had 
one contract that got screwed up.
    Guess where the contract was? The U.S. Air Force. We asked 
the Air Force auditors to look into it. It was a corrupt 
contract, and we had to dump the whole thing. That is the only 
contract that got screwed up.
    Mr. Perry. Well, as two Army guys, look, we like picking on 
the Air Force but that is another--Mr. Chairman----
    Mr. Natsios. I am Army too or I would not have told you the 
story.
    [Laughter.]
    Mr. Bera. Well, and I know Mr. Espaillat is on his way over 
here. You know, I have additional questions. So since we do 
have a little bit of time we will go and do a second round of 
questions if you also have questions.
    I am conscious and supportive of what Mr. Perry brought up 
in terms of, you know, we do have a responsibility to use the 
taxpayer dollars in the most effective way and in conversation 
with the current USAID administrator, Ambassador Green, I 
really do think the shift to capacity building and looking at 
the assets in the countries that we are going into and trying 
to, as opposed to a one-size-fits-all, saying, you know, each 
country in each situation is specific.
    Ms. Higginbottom, we had a chance to travel together to 
Europe and I think there are some specific examples of how 
CARE, working with USAID and the U.S. Government, are doing 
some specific programs to help empower women in villages to 
care for themselves.
    And if you want to share some of those, you know, because 
those are not ones that demand donations from the United States 
in the long term. What it is doing is building self-
sufficiency.
    Ms. Higginbottom. Yes, thank you. A lot of the care 
programming is really aimed at how we build capacity over time, 
how we make sustained investments, not--I mean, we do 
humanitarian response. We respond to emergencies.
    But we also look at investments we can make that can really 
lift up communities and we do that with a lot of USG support, 
with a lot of resources from the USAID as well as other 
partners, and we have a variety of different programs. We saw 
some in Sierra Leone and the idea--and I think it is consistent 
with Administrator Green's approach--to get a path to self-
reliance.
    We want to lift whole communities out and one of the 
reasons why--the principal reason why we have over time come to 
focus on women and girls is that the data shows that by 
targeting not just women and girls--we benefit boys and men as 
well--but by targeting them we see that there are greater 
returns in terms of investment in health care and education for 
their children and it lifts them up into becoming 
entrepreneurs.
    We have an incredibly powerful--it is called the Village 
Savings and Loan Association. They are small savings groups but 
they are much more than that. They become really a platform to 
save some money but also to become empowered in communities and 
make permanent and sustained change.
    I think that is the type of development assistance that we 
know is successful and that works and that over time should 
become really the lever that lifts these countries.
    Mr. Natsios was talking earlier about countries that were 
once the recipient of aid and are now our trading partners--
some of the biggest countries in the world. That is our 
objective with the approach on poverty reduction.
    Mr. Bera. Mr. Natsios, in the remaining time that I have 
left, your focus on Africa, and when we think about there is 
many things that we should be focused on in Africa.
    You know, one, that I spend a lot of time worried about is 
the youth bulge that we are seeing in sub-Saharan Africa and, 
you know, a large population of young people, young men, who 
may not have anything to do--you know, potentially 
destabilizing to the region, et cetera.
    And I would just be curious if we were thinking about how 
we approach that and how we are approaching it and, again, 
sticking with what is working, what is not working--you know, 
just in the remaining minute and a half I would be curious 
about your thoughts on that.
    Mr. Natsios. First, when I became administrator one of the 
first things we did was set up the Office of Conflict 
Mitigation and Management. Some people said, ``Why? That's the 
State Department's job." I said, diplomatically it is. 
Developmentally, we can do things that cause conflict if we are 
not careful, and we can do things that prevent conflict if we 
are strategic in our planning.
    We asked how many of the 70 missions had civil wars or 
major conflicts in the preceding 5 years. Sixty percent. Sixty 
percent had major conflicts.
    I asked this office to intergrate ways to deal with that 
into their country strategis. The research showed that the 
youth bulge and illiteracy are correlated with conflict. The 
young men who join these militias in West Africa, in Yemen, and 
in other places are often illiterate and unemployed.
    So the youth bulge is affecting the stability of the world 
order, even if we do not see it. It is at the grassroots level, 
and when we begin to study what is causing this, it is very 
interesting.
    We sent teams in with the State Department and DOD in 2003 
into the Sahelian region to see why people were joining al-
Qaida--I think it is called al-Qaeda in the Islamic Maghreb 
now.
    They started interviewing young men. It was not poverty 
that was causing them to join. It was the sense of belonging, 
of purpose in life. Most of them were not Islamists. They had 
no theological training. They did not even know what that 
meant. They were being propagandized by the leaders who were 
using them for this purpose.
    But it is the same mentality for young people--young men 
particularly but young women now, to joining gangs in L.A. and 
Central America and other places.
    So what we have noticed is if you can get these vulnerable 
young people into youth groups--more soccer teams--it helps. 
When I first saw this I asked why we were spending money on 
soccer teams. My staff told me, ``do you want them joining 
militias or a soccer team?" I chose the soccer team.
    You will notice in the USAID RFPs that workforce planning 
for youth is now a much bigger theme in all of USAID 
programming. I have noticed it much more than when I was in 
office.
    Mr. Bera. So it is a worthwhile area for us to pay 
attention to.
    Mr. Natsios. It is a very worthwhile area.
    Mr. Bera. Mr. Zeldin has been kind enough to let me go to 
Mr. Espaillat from New York first. Then we will come back to 
Mr. Zeldin.
    Mr. Espaillat. Thank you. Thank you so much, Chairman.
    Violence and illicit trafficking in Latin America and the 
Caribbean has become a more serious problem and I think that it 
deserves further attention from the U.S.
    I believe we need to do more with the State Department's 
Caribbean Basin Security Initiative and the Central America 
Regional Security Initiative Programs to curve the persistent 
violence in the region.
    Now, previously, many of these countries, so like 
transported drugs to the north, to the U.S., and they were 
involved in that aspect of the trade. But now there seems to 
also be a very dangerous and persistent code of violence in 
those urban cities of those countries that need to be addressed 
as well.
    And so what are--what are some of the recommendations that 
you can share with us today and with regards to improving the 
situation regarding this violence and illicit trafficking in 
Latin America and the Caribbean?
    Ms. Higginbottom. Just a couple of comments and ask Mr. 
Natsios to jump in.
    I think that it is clearly an issue. It is impacting us 
directly, whether it is because of migration and drivers there 
or because of the drug trade itself.
    I think we can look at the success of Plan Colombia for 
some lessons learned when we have a long-term sustained 
commitment. We talked about an incredibly fragile State, 
dealing with many of those issues. Now over 15 years later we 
get to Paz, Colombia and we see a different opportunity.
    I think the investment in the Northern Triangle of Central 
America where we see a lot of those conditions is absolutely 
critical to both addressing the drivers of migration but also 
encountering, you know, the cartels and the drugs that are--and 
the gangs in that area that are driving it.
    During the last administration we made a significant 
increased investment there. It is a longer-term commitment that 
takes some time to address the violence and the corruption and 
the security issues. But I think that is critical to maintain.
    Mr. Espaillat. But in addition to the sort of like 
traditional law enforcement efforts that could be augmented via 
additional funding, what are some of the social programs beyond 
the soccer leagues, right, that could help relieve the 
situation locally and also curtail the migration problem?
    Ms. Higginbottom. Yes. What I have seen, particularly in 
the Northern Triangle countries, is a combination of things.
    You are working with law enforcement. You are doing 
training. You are cracking down on corruption. You are working 
with the three governments to ensure they are making 
commitments to follow through.
    But there is a lot of programming for kids and young 
people, A, to give them something to do to keep them out of the 
gangs, to protect their safety. They are complicated to 
implement in certain very, very dangerous places but when done 
well are very successful, and I visited many of them when I was 
at the State Department and I think sustaining that investment 
is really important.
    But it has to be alongside a crackdown on corruption and 
really focusing on law enforcement as well.
    Mr. Natsios. Can I just add to that?
    Mr. Espaillat. Sure.
    Mr. Natsios. There is a part of that program, just to drill 
down a little further, that Ms. Higinbottom is referring to 
that looks at the indices that help us understand whether a kid 
is vulnerable to being recruited into the gang.
    What USAID and its partner organizations have done in those 
three countries--and this is based, by the way, on a model used 
in L.A. to keep kinds out of the gangs is identify what all 
those risk factors are, the figure out which kids are 
vulnerable, then put them in specific programs that reduce the 
vulnerability based on the factor that put them in the category 
in the first place.
    They are showing a substantial decline in gang membership 
as a result of this system. So the programs work. But the 
biggest problem--and this is something, Mr. Chairman, that I 
strongly urge the committee to consider--is the time horizon.
    USAID programs do work. They take 10 to 15 years sometimes 
to work. When we cut a program halfway through, we wipe out 
half the investment because it takes 10 years--sometimes 15 
years, particularly in democracy programs--change to occur.
    So one of the things this committee can do is look at the 
time horizon problem.
    Now, if there is mismanagement, I am not saying you should 
not absolutely look at it. We are not talking about 
mismanagement. But if you want to see results, realize that the 
Green Revolution took 30 years to implement. Thirty years.
    I am the chairman of a the board of Harvest Plus, a member 
of CGIAR, the Consultative Group for International Agricultural 
Research. Harvest Plus breeds plants for micro-nutrients--
specifically zinc, iron, and vitamin A--to address micro-
nutrient deficiencies among the poor in developimg countries.
    The reason I am bringing this up is that it will take 30 
years to fully inplement this program. Harvest Plus has bred 
these micro nutrients into 298 crops grown by poor people in 
the developing world. We have proved this can work. Now we have 
to get the seed out to farmers in a sustainable way. It is 
going to take at least 15 years, additional years to do that.
    Washington policy makers want want immediate results. I 
say, how are you going to get the seed out to a billion people 
in a year? It takes years to do this stuff.
    Mr. Espaillat. Yes. Mr. Chairman, just to conclude, and 
these programs, obviously, cost money and this current 
administration continues to repeatedly send to Congress 
requests for deep cuts, and so that is, obviously, a major, 
major problem that--there is a perception out there that we are 
giving away everything when in fact foreign aid is just 
minuscule in regards to the entire budget and there is proposed 
cuts to begin with.
    Thank you, Mr. Chairman.
    Mr. Natsios. I do not support these cuts, Mr. Chairman.
    Mr. Espaillat. Thank you.
    Mr. Bera. Mr. Zeldin.
    Mr. Zeldin. USAID put forth a plan to partially reorganize 
a lot of consultation with Congress. I do not know if you had 
any thoughts you wanted to share that would be pertinent to the 
topic of this hearing with regards to the plan the USAID 
Administrator Green has.
    Ms. Higginbottom. I will just say one brief thing because I 
know you will have a lot to say. I think that there are some--
it seems to be, from my perspective, some really good ideas. 
How they are implemented is really important.
    But when I look at, for example, the proposal to bring the 
food and nutrition programs into--to stop isolating them and 
bring them into more comprehensive that is just aligned with 
the way we do programming, for example, that we know is much 
more effective when it is combined with other interventions.
    I think there is a lot of logic there. From what I have 
understood from the proposals there is still a lot to learn 
about its implementation.
    Mr. Natsios. When I was the director of OFDA--the Office of 
Foreign Disaster Assistance--which was our emergency response 
mechanism in USAID for famines, civil wars, and disasters like 
earthquakes, we considered seriously merging Food for Peace and 
OFDA together.
    If Bush 41 had been elected to a second term, we were going 
to implement it. We were seriously considering it.
    Mark Green just did it 2 weeks ago and he asked me for 
support. This has nothing to do with the Trump administration. 
We were considering doing this 30 years ago.
    So I strongly support what Mark Green is doing. If I 
thought he was damaging the agency, I would say it in public.
    He is not damaging the agency. I think he is a very good 
administrator. He was a good choice. He is an honorable guy. He 
is trying to do the right thing.
    Now, do I agree with every single detail of everything he 
is doing? No. But the reorganization you are talking about, 
Congressman, I support and as I said before, we were 
considering it in 1992.
    Mr. Zeldin. Any other specific suggestions that you want to 
throw out there for our consideration and his?
    Mr. Natsios. Regarding the oversight functions, a council 
needs to be formed of the special IGs, the IG for USAID. The 
OMB, the GAO, and the Congressional Oversight Committees.
    A council should be formed statutorily to meet and 
coordinate so they are not auditing the same program in the 
same country at the same time. We had three different agencies 
auditing capacity building in Iraq in the middle of a war.
    We spent much of our time responding to three different 
agencies auditing the same program. That is a waste of taxpayer 
money while our people and soldiers are getting killed.
    We lost 300 people in Iraq, 600 in Afghanistan, while we 
were in the middle of answering three different audits by three 
different agencies. It is too much.
    Ms. Higginbottom. I would add a couple of things that are a 
bit different. One there is, in the 2015 Quadrennial Diplomacy 
and Development Review, some recommendations about how to 
increase efficiencies across the two agencies that I think 
regardless of administration this is--this is separate from any 
sort of strategic priorities I think are important.
    One of them that I led was a joint strategic planning 
exercise across the two agencies--that does not happen 
anymore--as well as joint reviews, and the reason for that--
there is some tension, of course, between what development 
priorities and what foreign policy or diplomatic priorities we 
might have in certain places.
    But the fact of coordinating and communicating and 
collaborating is just a more efficient use of our dollars and 
it does not--it does not subjugate one department's priorities 
to the other.
    It is really about coordination and making sure. In 
Washington, we have the same level of understanding that you 
might have in a mission or an embassy, which does not--is not 
always the case.
    And also I would say--Mr. Natsios said something earlier 
about empowering the field. One very practical thing--when the 
State Department begins its budget and planning process it 
starts at the mission and it comes up to the bureaus and then 
eventually to the--and at State it is the--excuse me, at USAID 
it is the other way, and I think there is a lot of inefficiency 
in having those processes sort of start in different places and 
end up differently. They need to be separate processes but they 
should be better aligned.
    Mr. Natsios. We used to do planning at the mission level, 
but because nearly every dollar is earmarked in USAID, we had 
to tell the missions, ``These are the earmarks that they are 
going to get imposed, and you need to plan accordingly.".
    The old system, for 40 years in USAID, was that everything 
was done from the bottom up. Now, everything is earmarked. 
There is no discretion left.
    Mr. Zeldin. Briefly, I just have just over a minute left.
    Switching over to State Department and the special envoy 
positions, Secretary Tillerson was starting to look at the five 
dozen or so special envoys. Are there any that your--that you 
have identified as wanting to elevate higher?
    Are there any positions--any of the special envoy positions 
that you think are unnecessary? Do you have any thoughts that 
you want to share as far as----
    Ms. Higginbottom. I think from a--excuse me--from a process 
perspective, I think there should be a regular and I would do a 
every one-or 2-year review of the special envoy offices.
    Many are congressionally mandated. Others are appointed 
because at a moment in time you need them and those are 
important and we should not say all special envoys are bad, in 
my opinion.
    But some are outdated and it is not a great use of 
resources. We did that under Secretary Kerry's leadership and 
we got rid of a bunch. It was not the most popular thing within 
the building but it was the way that we could then say we need 
a special envoy to counter ISIL or another--a strategic 
priority.
    So I think it is an important regular process that should--
that should occur in the State Department in terms of 
currently. I do not think my--I am as familiar with the current 
spectrum but I think they should be regularly reviewed and they 
should be presented to Congress as well.
    Mr. Natsios. I was a special envoy myself under President 
Bush for Sudan. I think I did a pretty good job under difficult 
circumstances in the middle of two terrible civil wars.
    Still, we have to understand the effect this has on the 
assistant secretaries when we put special envoys in to do their 
job, because that is what is happening.
    Now, are there situations in which you need a special envoy 
for a major crisis that requires someone's full attention. Yes, 
there are, and I agree with Ms. Higginbotom that saying all 
special envoys are a bad idea is not wise.
    However, having 50 special envoys is excessive. Why do you 
have a State Department, then? Why are there assistant 
secretaries? What are they left to do?
    I know it is very difficult from a political standpoint to 
get rid of some of these titles. But from a management 
standpoint, it does not make any sense.
    Mr. Zeldin. My time is up. I will yield back to the chair.
    Ms. Omar. Thank you. And in line with some of the things 
that sometimes does not make any sense, Ms. Higginbottom, it 
seems that sometimes our humanitarian goals under--are under 
cut by other parts of U.S. foreign policy.
    To me, there seems to be--an emblematic example is the 
horrific situation that is happening in Yemen. Money for 
humanitarian aid does not seem to be a problem.
    We sent over $700 million trying to alleviate the enormous 
human suffering that is taking place in Yemen but it cannot get 
to the people because of the political and the military 
realities there.
    And one of those realities is that under the Obama and 
Trump administration we have been militarily supporting the 
Saudi-led coalition. I was proud to co-sponsor the Yemen War 
Powers Resolution and my question to you is to kind of think 
about the big picture.
    Is it the case that our diplomacy and development 
objectives sometimes seem to severely undercut our military and 
political objectives?
    Ms. Higginbottom. Thank you, Congresswoman. I mean, the 
situation--the humanitarian situation in Yemen is just awful. 
It is one of the worst crises, obviously, in the world. There 
is 80 million--80 percent of the, excuse me, of the Yemeni 
population that is in need of humanitarian assistance.
    We have a very large program with CARE trying to address 
some of those needs. I can speak to my perspective from the 
Obama Administration in which we were deeply engaged in trying 
to support a political solution--a peace solution--and had 
quite a deep involvement in that, which is ultimately how we 
are going to reduce the violence, and I think that diplomacy 
and engaging in that is critical important.
    Obviously, you know, we find ourselves facing just an 
absolutely horrific crisis there and we have got to figure out 
what are the steps forward now.
    Mr. Natsios. If I could just add.
    Ms. Omar. Yes, I actually was going to have you answer this 
question for me. Would you explain why a focus on humanitarian 
aid and human rights and development are important from a 
national security standpoint?
    Mr. Natsios. Sometimes there is a conflict between defense 
and development, Congresswoman. I watched it. I would get 
enraged sometimes. But this has been going on for 70 years. It 
is not new, though sometimes it is more public than it used to 
be.
    Food was used as a weapon against North Korea during the 
nuclear negotiations 25 years ago when there was a famine and 2 
1/2 million people died. I was part of the NGO community. I was 
vice president of World Vision and we had a coalition to stop 
using food as a weapon in diplomacy.
    President Bush said we would never do it, and he did not 
for the 8 years he was President, I do not think President 
Obama did it either while he was in office.
    There are clear tensions, and you have to make a judgment 
as to what is most important and whether aid is appropriate to 
use in achieving other ends. For me, using food aid as a weapon 
in negotiations is like blaming the people who have been the 
object of atrocities for the atrocity.
    They are not the ones that caused the problem. The people 
who are dying in a famine are usually weak, vulnerable people 
who have no way of protecting themselves. Why are we punishing 
them?
    Sometimes we fail to consider the ethical consequences of 
what we are doing. With respect to Yemen, I wrote an op-ed 
piece with the former director of OFDA--the Office of Foreign 
Disaster Assistance--in the Obama Administration. It was a 
bipartisan op-ed criticizing the Saudi government's blockade. 
And we timed it for the Saudi Crown Prince's visit. He 
apparently got a little upset that it appeared in the newspaper 
when he arrived.
    Ms. Omar. Yes.
    Mr. Natsios. Then, President Trump actually issued a tweet 
attacking the Saudis for doing this, and they suspended the 
blockade for a few months, but then they reimposed it.
    Reimposing it was not ethical. You have to consider the 
ethical consequences of this.
    Ms. Omar. So we are in agreement that humanitarian aid 
should never be politicized?
    Mr. Natsios. I do not think it should be politicized and I 
have spent 30 years of my career trying to prevent that from 
happening.
    Ms. Higginbottom. I agree with that.
    Ms. Omar. I appreciate that. I yield back my time.
    Mr. Bera. Mr. Zeldin, if you do not have any additional 
questions----
    Mr. Natsios. Now, let me just add one little qualification.
    Mr. Bera. Please.
    Mr. Natsios. If we find out that large amounts of food aid 
is being diverted by the regime or by any combatants or 
militias, then we must stop the program. That is what we found 
in North Korea. The North Koreans were diverting food.
    I sent someone up, under cover, to the Chinese border with 
North Korea to interview refugees. We found that 40 to 60 
percent of the food was being diverted by the secret police and 
the military. So I ended the program. We did it very quietly,. 
But the aid was not going to the people who were supposed to 
get it.
    That is a legitimate reason for ending it. That is not 
politicizing the aid. The purpose of the aid is to feed hungru 
people.
    Mr. Bera. And part of our job as oversight----
    Mr. Natsios. Yes.
    Mr. Bera [continuing]. Is to make sure our aid and 
humanitarian efforts are getting to the folks that we are 
actually trying to help.
    Mr. Natsios. Exactly. Exactly.
    Mr. Bera. Sure. Go ahead.
    Ms. Omar. Can you think of an example where a country that 
we might send humanitarian aid into can see it as inciting 
violence within that country?
    Mr. Natsios. Well, you might get that view point, if you 
talk to Omar al-Bashir, who I dealt with for 30 years as the 
president of Sudan, and who may be leaving office shortly, 
involuntarily, given the uprising going on in northern Sudan 
right now. He saw all of the humanitarian aid as helping his 
opponents and prolonging the war.
    He said, ``If you would only stop the aid, all these people 
would stop fighting." I said, ``They will stop fighting because 
they will all be dead. That is what you want to happen."
    I understood what he was saying, and he did argue that some 
of the food was being diverted and we had to be careful not to 
let that happen--to let aid get to the rebels, for example, in 
Darfur.
    But 2 million people's villages were burned down. Thirty-
eight hundred villages were burned by the Janjaweed in 
cooperation with the Sudanese government. Are we supposed to 
just ignore that? Three hundred thousand people died in Darfur.
    Ms. Omar. Yes. Well, thank you. I think we are in agreement 
that sometimes in particular situations, depending on who is 
looking at it, sometimes we can see it as being diverted and we 
can--we can have a moral clarity and ethical understanding of 
why we are doing it, and sometimes people within those nations 
can look at it as having an alternative motive in getting 
involved and sending that aid.
    And so there is a balance and oftentimes we have to be 
cautious of towing the line and making sure that we are not 
being seen as bad actors intervening in other people's affairs.
    Thank you.
    Mr. Bera. Thank you.
    I want to thank both of the witnesses for being here. We 
will get you to your plane on time and----
    Mr. Natsios. Thank you, Congressman.
    Mr. Bera [continuing]. Again, we look forward to continuing 
to work with both your organizations and both of you as well.
    So thank you.
    Mr. Natsios. Thank you very much.
    Ms. Higginbottom. Thank you very much.
    Mr. Bera. With that, I adjourn.
    [Whereupon, at 4:39 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  STATEMENTS SUBMITTED FOR THE RECORD
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
